No. 19-329

SHARONELL FULTON, ET AL.

v.

CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.

AFFIDAVIT OF SERVICE
I, Denise M. Dulong, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. That, on this, the 20th day of August,
2020, Pursuant to (ORDER LIST: 589 U.S.) I filed One (1) copy of the foregoing with
the United States Supreme Court via UPS Ground Transportation, and served via
electronic mail of the same, to the following:
Mark Leonard Rienzi
THE BECKET FUND FOR
RELIGIOUS LIBERTY
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becketlaw.org

Counsel for Petitioners
Sharonell Fulton, et al.
Leslie Cooper
AMERICAN CIVIL LIBERTIES UNION
125 Broad Street
New York, NY 10004
lcooper@aclu.org
(212) 519-7815

Counsel for Respondent Intervenor
Support Center for Child Advocates and
Philadelphia Family Pride

Neal Kumar Katyal
HOGAN LOVELLS US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
202 637 5528
neal.katyal@hoganlovells.com

Counsel for Respondent Intervenor
Support Center for Child Advocates and
Philadelphia Family Pride
Deepak Gupta
GUPTA WESSLER PLLC
1900 L Street, NW
Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com

Counsel for Respondent City of
Philadelphia, Department of Human
Services for the City of Philadelphia,
Philadelphia Commission on Human
Relations

GibsonMoore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249- 7770 - Telephone
(804) 249-7771- Facsimile
denise@gibsonmoore.net

For:
Lisa Soronen

STATE AND LOCAL LEGAL CENTER

123 N. Capitol St. N.W.
Washington, DC 20001
(202) 434-4845
lsoronen@sso.org

John J . Korzen
. Counsel of Record
WAKE FOREST UNIVERSITY

SCHOOL OF LAW
APPELLATE ADVOCACY CLINIC

Post Office Box 7206
Winston-Salem, NC 27109
(336) 758-5832
korzenjj@wfu.edu

Counsel for Amici Curiae
Signed and subscribed before me on this the 20th day of August, 2020.

.

Bradford E. Moore
NOTARY PUBLIC
Commonwealth of Virginia
Reg. #7241026
Commission Exp. 4/30/2021

